Report No. DODIG-2013-038               January 14, 2013




    Independent Auditor's Report on the Examination
      of the Existence, Completeness, and Rights of
      the Department of the Air Force's Uninstalled
             Missile Motors and Spare Engines
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGIN IA 22350-1 500




                                                                        January 14, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor's Report on the Examination of the Existence,
         Completeness, and Rights of the Department of the Air Force's Uninstalled
         Missile Motors and Spare Engines (Report No. DODIG-2013-038)

We are providing this repmt for information and use. No written response to this repmt
was required. Therefore, we are publishing tllis report in final form.

We appreciate the comtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 664-5945).




                                              Lorin T. Venable, CPA
                                              Acting Assistant Inspector General
                                              DoD Payments and Accounting Operations
                                             INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                              4800 MARK CENTER DRIVE
                                           ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                     January 14, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Examination of the Existence, Completeness, and
         Rights of the Department of the Air Force’s Uninstalled Missile Motors and Spare
         Engines (Report No. DODIG-2013-038)

We examined management’s assertions of audit readiness 1 for the existence, completeness, and
rights of the Department of the Air Force’s uninstalled missile motors and spare engines, which the
Air Force categorized as operating materials and supplies. As a result of our review of the
Air Force’s assertions, we performed an examination of the existence, completeness, and rights of
the Air Force’s uninstalled missile motors and spare engines as of June 29, 2012. The Air Force’s
assertions contained 1,556 uninstalled missile motors and 4,652 spare engines. 2 The Air Force’s
assertion packages did not assert audit readiness for any other asset categories; therefore, we
excluded all other asset classes from our examination. The Air Force’s assertions specifically
excluded a reconciliation of the summary schedule of assets to the general ledger. Therefore, our
examination solely focused on the assets in the Accountable Property Systems of Record (APSR)
and did not determine whether the APSR reconciled to the general ledger. The APSR for spare
engines is the Comprehensive Engine Management System (CEMS) and the APSR for uninstalled
missile motors is the Integrated Missile Database system.

Air Force management is responsible for its assertions of audit readiness. Our responsibility is to
express an opinion on the assertions based on our examination.

We conducted our examination in accordance with attestation standards established by the American
Institute of Certified Public Accountants and in compliance with generally accepted government
auditing standards. Those standards require examining, on a test basis, evidence supporting the
Air Force’s assertions of audit readiness of the existence, completeness, and rights of its mission
critical assets and performing other procedures we consider necessary. We believe that our
examination provides a reasonable basis for our opinion on management’s assertions.




1
  Audit readiness per the December 2011 DoD Financial Improvement and Audit Readiness guidance. Specifically,

Appendix C, Wave 3 – Mission Critical Asset Existence and Completeness Audit Key Supporting Documents and

Appendix D.

2
  See the Attachment for tables showing the significance of the uninstalled missile motor and spare engine categories the

Air Force included in its assertions.

Our examination disclosed deficiencies associated with aircraft and cruise missile engines managed
by the 309th Aerospace Maintenance and Regeneration Group (AMARG). AMARG managed
694 (15 percent) of the 4,652 engines that the Air Force included in its spare engine assertion as of
June 29, 2012. Our October 2012 site visit testing of 129 engines at AMARG identified
33 existence, completeness, and classification deficiencies. AMARG officials informed us that they
conducted their physical inventories of engines using data in their AMARG Business System,
MAXIMO Asset and Production management module, 3 and that they had recently identified
numerous potential discrepancies between engine information in MAXIMO and engine information
in CEMS. Specifically, in October 2012 they initiated a reconciliation between CEMS and
MAXIMO and identified 383 potential discrepancies, including engines in MAXIMO that were not
in CEMS, engines in CEMS that were not in MAXIMO, and engines that CEMS identified as
uninstalled but MAXIMO identified as being installed. Because this reconciliation occurred after
the June 29, 2012, Air Force assertion date and involved numerous potential discrepancies, we
cannot attest to the accuracy of engines at AMARG. On December 7, 2012, the Air Force provided
us a detailed corrective action plan to improve the financial reporting of AMARG engines and the
estimated completion date is June 2013.

In our opinion, except for the deficiencies associated with the quantities and classification of
AMARG engines described in the preceding paragraph, the Air Force’s assertion of audit readiness
for the existence, completeness, and rights of its uninstalled missile motors and spare engines, as of
June 29, 2012, is fairly stated in all material respects.

Internal Controls
Internal controls are important for safeguarding assets. Management designs internal controls to
provide reasonable assurance that unauthorized acquisition, use, or disposition of assets will be
prevented or detected and corrected in a timely manner. During our examination, we identified
internal control issues, but they did not preclude us from reaching an opinion regarding the
Air Force’s assertion. However, management should consider additional actions to improve the
internal controls to ensure the sustainability of its processes in accounting for the existence,
completeness, and rights of its uninstalled missile motors and spare engines.

We identified the following internal control issues.

    •	 The Air Force’s controls over the completeness and classification of spare engines for the
       MQ-9 Reaper remotely piloted aircraft needed improvement. Our completeness testing
       identified 3 engines not reported in CEMS, and our existence testing identified 16 spare
       engines installed in aircraft before the June 29, 2012, assertion date. The Air Force initiated
       a corrective action plan to improve the financial reporting of MQ-9 engines and identified an
       additional 18 engines that it had not loaded in CEMS. There were 111 spare remotely piloted
       aircraft engines in CEMS as of June 29, 2012, which represented only 2 percent of the total
       asserted spare engine population.




3
 MAXIMO is a module within the AMARG Business System used to track, control, and manage AMARG assets to
meet all operational maintenance aspects.


                                                     2

    •	 The Air Force’s controls over updating CEMS for spare engine installations needed
       improvement. According to Air Force policy, 4 personnel should report engine installations
       to CEMS no later than close of business the next business day following the date/time of the
       occurrence. Our sample testing identified 21 engines installed in aircraft before the
       June 29, 2012, Air Force assertion date, and the average time from installation until the
       CEMS update was 67 days.

    •	 The Air Force did not classify any spare engines or uninstalled missile motors as excess,
       obsolete, or unserviceable in its assertion packages. However, we identified several
       situations in which spare engines and uninstalled missile motors met DoD criteria for excess,
       obsolete or unserviceable assets. The DoD Financial Management Regulation, Volume 4,
       Chapter 4, “Inventory and Related Property,” defines excess operating materials and supplies
       (serviceable or unserviceable) as items that exceed the amount expected to be used in normal
       operations and that do not meet management’s criteria to be held in reserve for future use.
       Obsolete operating materials and supplies include stock no longer needed because of changes
       in technology, laws, customs, or operations. Unserviceable operating materials and supplies
       are physically damaged items that cannot be consumed in operations. The Air Force should
       determine a consistent methodology with respect to classifying spare engines and uninstalled
       missile motors as excess, obsolete, or unserviceable, considering the following situations:

             •	 Our sample testing identified 34 engines that the Air Force formally approved for
                disposal before June 29, 2012, and were awaiting either disposal action or
                certification of disposal completion through parts reclamation, strategic materials
                recovery, or demilitarization. 5

             •	 Our sample testing identified 11 aircraft engines that the Air Force used as
                maintenance training spares. These were often older models of engines that were
                similar enough for training purposes, but the Air Force no longer used them to fly
                aircraft. The Air Force also converted, or was in the process of converting, 92 cruise
                missile engines into weapons load and technical school training assets. Air Force
                personnel informed us that they did not plan to convert the assets back for regular
                service.

             •	 The Air Force’s population of spare engines included 628 held in long term storage
                under Stock Record Account Number 20ST. Air Force personnel informed us that
                they plan to use a limited number of these engines for future QF-16 aerial targets but
                would use a majority of them for spare parts or otherwise dispose of them. 6

             •	 The June 29, 2012, population of uninstalled missile motors included 991 that the
                Air Force maintained as part of its Rocket System Launch Program (RSLP). RSLP
                does not use these motors in weapons systems, and it refers to these motors as rocket

4
  Air Force Technical Order 00-25-254-1
5
  Our sample testing also identified an additional 28 engines at AMARG that the Air Force had formally approved for
disposal before June 29, 2012.
6
  In addition to the 628 engines held in long term storage under Stock Record Account Number 20ST, the population of
spare engines also included 694 potentially excess engines held in long term storage at AMARG.


                                                          3

                  motors. The RSLP Program Office provides flight test mission integration, program
                  management, and other suppmt, to include transpmtation, storage, refurbishment, and
                  launch of excess missile assets 7 to support national research and development
                  objectives on a cost reimbursable basis. As pa11 of the RSLP, the Air Force
                  assembles assets into a variety of launch vehicle configurations, depending on the
                  mission. RSLP officials informed us that since 20 10 they have used only 28 motors
                  for missions, which equates to an average usage of 9 per year. Air Force officials
                  informed us that since 2011 , RSLP has identified 475 rocket motors for
                  demilitarization/destruction and that to date RSLP has demilitarized, destroyed or
                  transferred 158 rocket motors. Air Force officials also informed us that they continue
                  to advocate for funding to continue these efforts.

             •    The June 29, 2012, population ofuninstalled missile motors included 81 that the
                  Air Force maintained as part of its Intercontinental Ballistic Missile Program.
                  However, these motors suppmted decommissioned Intercontinental Ballistic Missile
                  Minuteman II and Peacekeeper platforms.

Improving these intemal control processes will help the Air Force repeat and sustain the processes
during future financial statement examinations.

This report is intended solely for the information and use of the Under Secretary of Defense
(Comptroller)/ChiefFinancial Officer, DoD, and the Assistant Secretary of the Air Force (Financial
Management and Comptroller) and is not intended to be and should not be used by anyone else.
However, this report is a matter of public record, and its distribution is not limited.



                                                         dauh'--rv~c
                                                      LorinT. Venable, CPA
                                                      Acting Assistant Inspector General
                                                      DoD Payments and Accounting Operations


Attachment:
As stated




7
 These consist of deactivated missile assets, predominantly from retired Intercontinental Ballistic Missile platforms such
as the Minuteman II and Peacekeeper.


                                                            4
Attachment. Significance of Asserted
Asset Categories
The tables below show the significance of the total number of assets for all asset categories that the
Air Force compiled in its spare engine and uninstalled missile motors assertions as reported in the
APSRs as of June 29, 2012. Because the Air Force’s assertions specifically excluded a
reconciliation of the summary schedule of assets to the general ledger, we compared only the
significance of the asserted assets to the total number of all asserted assets reported in the APSRs.


         Table A1. Significance of Spare Engine Categories in the Air Force Assertion
                                                            Number
                                                            of Assets
                                                              in the
                     Spare Engine Category                   APSR        Percent of Total
    Aircraft - Piloted                                        4,285              92
    Cruise Missile                                              256               6
    Aircraft - Remotely Piloted                                 111               2
     Total                                                    4,652            100



  Table A2. Significance of Uninstalled Missile Motor Categories in the Air Force Assertion
                                                           Number
                                                           of Assets
                                                             in the
             Uninstalled Missile Motor Category             APSR         Percent of Total
   Rocket System Launch Program                                991              64
   Intercontinental Ballistic Missile                          565              36
    Total                                                    1,556             100




                                                   5

